Supreme Court. U.S.
PILED

PROVIDED TO OKEECHOBEE
CORRECTIONAL INSTITUTION
ON
FOR MAILING
BY
PROVIDED TO OKEECHOBEE

COR
ON
BY

r £WAL institution

JUN 0 1 2021
OFFICE OF THE CLERK

No.

FOR MAILING

IN THE
SUPREME COURT OF THE UNITED STATES

CHARLES GIVENS
Petitioner
vs.
STATE OF FLORIDA
Respondent(s)

ON PETITION FOR WRIT OF CERTIORARI TO

UNITED STATES DISTRICT COURT
(MIDDLE DIST. OF FLORIDA)
and
THE 1 1th CIRCUIT COURT OF APPEAL’S
(DENIAL OF A COA)

PETITION FOR WRIT OF CERTIORARI

CHARLES GIVENS DC# 615984
Okeechobee C. I.
3420 N.E. 168th Street
Okeechobee, Florida, 34972

!

QUESTION(S) PRESENTED
1. WHETHER THE ELEVENTH CIRCUIT COURT OF APPEALS
ERRED IN ISSUING AN UNELABORATED OPINION DENYING
A CERTIFICATE OF APPEALABILITY AFTER DENIAL OF A
COA BY THE DISTRICT COURT

1

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page.
[V( All parties do not appear in the caption of the case on the cover page to the
proceeding in the court whose judgment is the subject of this petition is as follows:
* Mark S. Inch, Sec'y, FI. Dep't of Corr.
RELATED CASES
1. United States Court of Appeals for the Eleventh Circuit
Charles Givens, v. Sec’y, Dep't of Corrections, Attorney General, State of Florida,
et al;
Case No.: 20-14112-A
Disposition: Unelaborated denial of COA on April 6, 2021.
2. United States District Court (Middle District of Florida)
Charles Givens, v. Sec'y, Dep't of Corrections, et. al.
Case No.: 5:17-CV-160-Oc-10PRL
Disposition: Denied with no COA on September 29. 2020
3. 5th Judicial Circuit Court (Lake County)
State of Florida v. Charles Givens
Case No.: 2012-CF-1065-A
Judgment: June 11, 2013
4. 5th District court of Appeal
Charles Givens v. State of Florida
Case no.: 5D14-0778
Disposition: Per Curiam aff d. w/out opinion on May 12. 2015.

li

i

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

IV

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

8

CONCLUSION

12
INDEX TO APPENDICES

APPENDIX A - 1 1th Circuit Court of Appeals Denial of Motion for
Certificate of Appealability (unelaborated) April 6, 2021.
APPENDIX B - [Motion for] Certificate of Appealability after the Denial of Both a
COA, §2254 Petition and Leave to Appeal in Forma Pauperis by
the United States Middle District of Florida. January 7, 2021.
APPENDIX C - U.S. District Court's Denial of Petition for Writ of Habeas Corpus
§2254. September 29, 2020.
APPENDIX D - Petitioner's Reply/Traverse. September 29, 2017.
APPENDIX E

Petitioner’s §2254 Petition for Writ of Habeas Corpus. April 5,
2017.

APPENDIX F - Petitioner's Notice of Appeal. October 27, 2020.

in

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 1254(1)
28 U.S.C. § 2253(c); (c) (2)
28 U.S.C. §2254
Rule 22 (b) (2) FRAP
Eleventh Circuit Rule 22-1
Eleventh Circuit Rule 27-2
Rule 12(b) (6) FRAP

iv

TABLE OF AUTHORITIES
CASES
Anders v. California, 386 U.S. 738 (1967)

6

Barefoot v. Estelle, 463 U.S. 893 (1983)

8

Givens v. State, 166 So.3d 805 (Fla. 5th DCA 2015)
Hohn v. United States, 524 U.S. 236, 238, 252 (1998)
Jennings v. Woodford, 290 F. 3d 1006, 1010 (9th Cir. 2002)

passim
2

.9

Miller -El v. Cockrell, 537 U.S. 337

9

Miranda v. Arizona, 384 U.S. 436 (1966)

4

Slack v. McDaniel, 529 U.S. 473 (2000)

passim

STATUTES & RULES
28 U.S.C. § 1254(1)

2

28 U.S.C. § 2253 (c); (c) (2)

8

28 U.S.C. § 2254

passim

Eleventh Circuit Rule 22-1

8

Eleventh Circuit Rule 27-2

8

Rule 12 (b) (6) FRAP

8

Fla. R. Crim. P.3.850

6

OTHER

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States Court of Appeals appears at Appendix A to the
petition and is
is unpublished
The opinion of the United States District Court appears at Appendix C to the
petition and is
[^is unpublished.

1

JURISDICTION
f^For cases from federal courts:
The date on which the United States Court of Appeals decided my case was April
6, 2021.
[vf^No petition for rehearing was filed in my case.
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1), and Hohn v.
United States, 524 U.S. 236, 238, 252 (1998) (United States Supreme Court has
jurisdiction under 28 U.S.C. §1254(1) to review denials of an application for a
Certificate of Appealability by a Circuit Judge or panel).

2

STATEMENT OF THE CASE AND
FACTS ALLEGED ON HABEAS CORPUS PETITION
Petitioner was charged by information in Lake County, Florida, with one
count of Second -Degree Murder. On April 29, 2012, Petitioner walked into the
Leesburg Police Department and told officers that he had just killed his wife, Carol
Benton. He provided the officers with the victims address and the police found her
body, which had multiple puncture wounds in her chest and back. Petitioner
informed the police that the victim had picked up a knife and came at him in a way
that suggested she was going to stab him. He informed the police that he "blanked
out" and did not remember much of what happened.
Petitioner's trial commenced on June 10, 2013. Officer Gus Escalante of the
Leesburg Police Department testified that shortly after 4:30 p.m., on April 29,
2012, Petitioner entered the police station and stated he had just killed his wife.
Later, Petitioner told Officer Stevens that he had just killed his girlfriend by
stabbing her to death. Petitioner had blood on his shirt, shoes and shorts. Officer
Escalante drove to the victim's address and, in approaching the apartment, he
noticed what appeared to be blood leading up to the apartment. He testified he did
not enter the apartment but could see the victim lying on the floor. Sgt. Allen
Carter testified that he was one of the first two police officers to arrive on the
scene. He noticed blood drops leading to the apartment. The apartment door was
open 2-3 inches and he entered and saw the victim. There were no signs of life and
it was apparent the victim had bled profusely. Later, the victim was pronounced
dead. He took photos of the crime scene which were published to the jury.
Crime scene investigator Amanda Wolford testified that she had taken
photos of the crime scene, which were published to the jury. Ms. Wolford also
testified she had collected physical evidence from the scene including a knife
found in the sink. She did not find anything else in the sink and there was nothing

3

in the drainer. She stated she did not find any other knife outside of a drawer. Ms
Wolford checked the knives in the drawers and found they did not have any blood
on them. There was a question of whether Petitioner lived at the residence, but Ms.
Wolford did not find any male clothing in the house. She did, however, find some
items belonging to Petitioner in a utility closet outside the residence. Ms. Wolford
did not find any sign of forced entry.
EMT Mark Fuser testified that he arrived with the ambulance at the
Leesburg Police Department and found Petitioner sitting in a chair. Initially,
Petitioner would not tell them what happened. He did, however, state he had killed
his wife.
Police officer Jeremy Stevens testified he was with Officer Escalante when
Petitioner entered the police station. Petitioner informed them he had just killed his
wife. They sat him in the lobby and he again told them he had killed his wife.
Officer Stevens testified Petitioner had a puncture wound on his leg. Petitioner had
blood on his pants and shoes. Before he was transported to the hospital, Petitioner
was advised of his Miranda 1 rights, and he agreed to speak with Officer Stevens.
Petitioner was brought to the hospital and Officer Stevens went to the hospital and
interviewed Petitioner. Officer Stevens recorded the interview.
During the trial on June 10, 2013, Officer Stevens' interview of Petitioner
was played to the jury and contained an [alleged] confession by Petitioner. After
the audio recording was played, the trial court took a recess for about twenty
minutes. When the recess concluded, defense counsel requested another recess for
approximately five minutes. After the second recess, defense counsel informed the
court Petitioner wanted to enter a plea to the court. Court recessed for the evening.
On June 10, 2013, Petitioner signed a Waiver of Rights and Agreement to
Enter Plea, and pleaded guilty to the charge solely on the advice of counsel. The
1 Miranda v. Arizona, 384 U.S. 436 (1966)

4

Waiver of Rights contained a statement saying Petitioner requested a term of
imprisonment of 35 years, but he understood the judge could enter any legal
sentence up to life imprisonment. There was a line on the plea agreement for
Petitioner to initial and he did. At that point, the trial court held a change of plea
hearing.
During the colloquy on June 11, 2013, Petitioner stated he read and
understood the Waiver of Rights and had signed it the night before and initialed
any subsequent changes that day. He stated he understood he was waiving any
defenses he had and that he was entering the plea freely and voluntarily. He stated
it was his decision to enter the plea based upon advice from counsel. Petitioner
further stated under oath that he understood he could be sentenced to Life in
prison. He acknowledged he was entering a guilty plea because he was guilty of
the crime. There was a discussion of the various plea negotiations and the
prosecutor informed the court the negotiations were unsuccessful because the
victims family would settle for nothing less than life. When asked by the
prosecutor, Petitioner stated he had been unaware of the damage he had done to the
victim, but he did not have any questions about what was discussed in the
courtroom.
On October 21, 2013, the trial court sentenced Petitioner to life in prison. On
October 25, 2013, Petitioner wrote a letter to the trial court stating it was never his
intention to plea to the court. He accused defense counsel of misleading him by
informing him the trial court would rule in his favor and he would not receive a life
sentence. The trial court construed Petitioner's letter as a motion to withdraw plea
and set it for a hearing and appointed conflict counsel. The trial court held a
hearing on March 6, 2014, at which time Petitioner and trial counsel testified. On
March 7, 2014. the trial court entered an order denying Petitioner’s motion to
withdraw plea.

5

Petitioner filed an appeal with the Fifth District Court of Appeal, and the
Office of the Public Defender filed a brief alleging trial court error in denying
motion to withdraw plea. The Public Defender also filed a motion to withdraw [as
counsel] pursuant to Anders v. California, 386 U.S. 738 (1967). Petitioner filed a
pro se supplemental brief alleging the trial court erred in not advising him of the
potential for a life sentence; by denying his motion to withdraw plea; and for
reclassifying his conviction from a first-degree felony to a life felony. On May 12,
2015, the Fifth DCA per curiam affirmed Petitioner's judgment and sentence. See,
Givens v. State, 166 So.3d 805 (Fla. 5th DCA 2015). The Mandate issued on June
5,2015.
Petitioner filed a pro se motion for post-conviction relief (under Fla. R.
Crim. P. 3.850) on December 10, 2015, raising five (5) grounds of ineffective
assistance of trial counsel and one (1) ground of prosecutorial misconduct. On
March 7, 2016, the trial court entered an order summarily denying the motion
without an evidentiary hearing. Petitioner filed a motion for rehearing on March
22, 2016, which was denied on March 30, 2016. Petitioner appealed and the Fifth
DCA per curiam affirmed the trial court on June 21, 2016. See Givens v. State, 216
So.3d 639 (Fla. 5th DCA 2016). The Mandate issued on July 15, 2016.
Petitioner filed a successive motion for post-conviction relief on August 15,
2016, which was dismissed on August 24, 2016, since the grounds raised had
already been addressed by the motion to withdraw plea and previous motion for
post-conviction relief. Petitioner filed a pro se motion for rehearing, which was
denied by the trial court. Petitioner appealed. The Fifth DCA per curiam affirmed
the trial court's dismissal of the successive motion on February 7, 2017. See Givens
v. State, 229 So.3d 1247 (Fla. 5th DCA 2017). The Mandate issued on March 3,
2017

6

Petitioner filed his Petition for Writ of Habeas Corpus on April 5, 2017. In it
he raised seven (7) grounds for relief:
1.

He is actually innocent of second-degree murder.

2.

Trial counsel was ineffective for failing to depose the State's witnesses.

3.

Trial counsel was ineffective for failing to develop a self-defense strategy.

4.

Trial counsel was ineffective because she was not assigned to his case long
enough before going to trial.

5.

His plea was involuntary because he was coerced by trial counsel.

6.

His speedy trial rights were violated when trial counsel waived them without
his permission.

7.

Trial counsel was ineffective for failing to object when the wrong evidence
(i.e., the knife allegedly used in the incident) was introduced at trial.
The State contended that Grounds 1, 2, 4, and 6 were not properly exhausted

in the State courts and are without merit; and Grounds 3, 5, and 7, though
exhausted, are without merit.
On September 29, 2020, the District Court (without a magistrate’s report and
recommendation) issued an 'Order Denying Petition'. On October 27, 2020,
Petitioner filed a Notice of Appeal to the Eleventh Circuit Court of Appeals (case
no.: 20-14112-A), and filed a COA brief on January 7, 2021. Without elaborating,
the Eleventh Circuit Court denied petitioner's Application for a Certificate of
Appealability on April 6, 2021.
This Petition for Certiorari timely follows.

7

REASONS FOR GRANTING THE PETITION
INTRODUCTION
On October 27th , 2020, pursuant to 28 U.S.C. § 2253, Rule 22 (b) (2) FRAP,
and Eleventh Circuit Rule 22-1, Petitioner, Charles Givens (hereafter “Petitioner”)
moved the 11th Cir. Court for the issuance of a Certificate of Appealability
(“COA”), following denial of a COA request to the District Court. [Appendixes G,
B].
On April 6, 2021, the Eleventh Circuit Court of Appeals issued an
unelaborated decision to deny a COA.

STANDARD OF REVIEW FOR A COA
After denial of an application for COA to the district court, a petitioner may
petition (file an application) to the [Eleventh ] Circuit Court of Appeal to obtain
the COA. The Appellate Court may issue a COA from the denial of a §2254
petition "only if the applicant has made a substantial showing of the denial of a
constitutional right." 28 U.S.C. §2253(c)(2). The applicant must show that
"reasonable jurists could debate whether (or, for that matter, agree that) his petition
should have been resolved in a different manner or that the issues he presented are
'adequate to deserve encouragement to proceed further'" Slack v. McDaniel, 529
U.S. 473 (2000)(quoting Barefoot v. Estelle, 463 U.S. 893 & n. 4 (1983).
Applying this standard, Petitioner believes he has shown that "reasonable
jurists could debate the District Court's resolution of his substantive grounds for
federal habeas corpus relief, or at a minimum, that his grounds for relief are
adequate to deserve encouragement to proceed further."
The Petitioner only raised three (3) grounds (out of 7) on his COA (Grounds
3, 5 and 7) of his original habeas §2254 petition.

8

ARGUMENT
The standard to acquire a COA is "relatively low". See, e.g. Jennings v.
Woodford, 290 F. 3d 1006, 1010 (9th Cir. 2002)[citing Slack at 483]. Moreover,
because the COA ruling is not an adjudication of the merits of the appeal, it does
not require a showing that the appeal will succeed. Miller -El v. Cockrell, 123 S.
Ct. 1029, 537 U.S. at 337.
On Petitioner’s COA, he argued the following:
GROUND THREE - Jurists of reason could disagree and find debatable the
District Court's resolution of his constitutional claim of Ineffective Assistance of
Counsel, where counsel failed to discuss a trial strategy of self-defense with him
prior to trial, and that jurists of reason could conclude the merits of the argument
made in Ground Three are adequate to proceed further.
In Petitioner’s §2254 habeas petition, for ground three the Petitioner argued
that his position was always self-defense, and that at no time before trial or even at
trial did his attorney, Ms. Hammond ever discuss any trial strategies surrounding
presenting a self-defense case at trial. In fact, also arguing that his attorney did not
ever even visit him in the County Jail for over a year after his arrest. The Petitioner
had even brought his attorney's "lack of participation" [sic] in his self-defense case
to the judge's attention at a pre-trial hearing, placing the I.A.C. firmly on the
record. He informed the trial court of counsel’s violation of his rights by filing
crucial motions without his knowledge or consent, and how she was not preparing
him for trial. He also claimed that he told the judge that counsel was not providing
discovery information or obtaining the services of necessary experts to prove his
actions were in self-defense. He argued on his habeas that but for counsel's
deficient performance, he would not have entered his guilty plea (in the middle of

9

trial), but would have proceeded with the trial, confident that counsel would have
some sort of self-defense strategy to present. The mere fact counsel told the jury
that "There is the defense of self-defense and Mr. Givens raised that defense the
day he gave his statement to the police and he will give it to you again during his
trial ... she did threaten him with a knife and attacked him ..." [DE #24, pg. 11] in
no way refutes his claim, as she had never discussed with Petitioner whether he
was to be taking the stand, nor had she prepped him to do so, and she had no other
witnesses at all to testify to such. In no way does this refute that she was
ineffective for going into trial unprepared for a self-defense strategy - which is
exactly why (after his out-of-court meetings with his attorney in the middle of trial)
he panicked when he realized she had no defense to present. This led him to have
to throw himself on the mercy of the court by changing his plea to guilty, in the
middle of trial .... Something he had never previously contemplated. See, [DE
#24, pg. 10-11; State court's postconviction denial quotes].
Therefore, Petitioner has met the low standard of Slack v. McDaniel, 529
U.S. 473,478(2000).
This Honorable Court should grant Certiorari on this ground, and remand to
the District Court for an evidentiary hearing or the 11th Circuit for briefing.
GROUND FIVE - Jurists of reason could disagree and find debatable the District
Court's resolution of his constitutional claim of ineffective assistance of counsel
where the claim was that Petitioner's attorney, in the middle of trial, after telling
Petitioner that other than him testifying directly counsel had no other evidence
/testimony to present a self-defense defense, that Petitioner's only other option was
to immediately take a plea to avoid a life sentence; and that the judge would not
give him a life sentence if he did so. Whether he was told by the Court that he was
"facing" up to life if he pled openly (which is immaterial also because he was
always facing up to life - plea or no plea) has no bearing on this claim. What he
10

was "facing" by law and what he was told by counsel (that he wouldn't get life if he
pled guilty) are two completely different things. The issue is still a debatable one.2
And since the issue goes to "credibility", it is improper for a court to weigh
credibility using only a cold transcript. An evidentiary hearing must have been held
to determine such by the federal court (NOTE: Petitioner did not receive an
"evidentiary" hearing with counsel examining his previous attomey(s), on this
claim - just oral arguments with questions from the judge). [DE #24, pgs. 14-21].
Therefore an evidentiary hearing is proper in the federal court.
In the least, Petitioner has met the low standard of Slack v. McDaniel, 529
U.S. 473,478 (2000).
This Honorable Court should grant Certiorari on this ground, and remand to
the District Court for an evidentiary hearing or to the 11th Circuit for briefing.
GROUND SEVEN - Jurists of reason could disagree and find debatable the district
court's resolution of his constitutional claim of ineffective assistance of counsel,
for failure to object to the wrong evidence being entered into the trial.
The debatable issue raised was that the State introduced a weapon that was
not the weapon used in this incident.
At [DE #24, pg. 20] the district court made an unsupported assertion (that
trial counsel’s objection - had one been made - "could not be supported by
competent evidence or argument"). That, in and of itself, is speculative as to what
such an objection would have accomplished. The proper/correct weapon is almost
always crucial to the defense to prove material facts, especially a/the murder

2 As stated by the district court [DE #24, pg. 13] the Petitioner had already signed a 30-year
plea deal that was rejected by the prosecutor (during trial), so noone in their right mind (or not
coerced) would not continue the trial. No reasonably intelligent person would then open plea,
knowing the judge is now going to give between 30 and life, a life sentence either way to a man
of Petitioner's age.

11

weapon itself. This alone is debatable, and would make for a good argument on
appeal.
Petitioner has met the low standard of Slack v. McDaniel, 529 U.S. 473, 478
(2000).

This Honorable Court should grant Certiorari on this ground, and remand to
the District Court for an "actual" evidentiary hearing with counsel to represent the
Petitioner, or to the 11th Circuit Court for briefing.
CONCLUSION
The Petition for Writ of Certiorari should be granted. The case should be
remanded to the District Court for an evidentiary hearing with counsel to represent
the Petitioner, or it should be remanded to the Eleventh Circuit Court of Appeals
for briefing on the three (3) claims (out of seven originally raised), as Petitioner
has met the low standard of Slack.
Respectfully Submitted,
/si

Charles Givens DC# 615984
Okeechobee C.I.
3420 N.E. 168th Street
Okeechobee, FL 34972

12

